<html>
<title> - PROPOSING AN AMENDMENT TO THE CONSTITUTION OF THE UNITED STATES TO PROTECT THE RIGHTS OF CRIME VICTIMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
       PROPOSING AN AMENDMENT TO THE CONSTITUTION OF THE UNITED 
                STATES TO PROTECT THE RIGHTS OF CRIME VICTIMS 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                             H.J. Res. 106

                               ----------                              

                             APRIL 26, 2012

                               ----------                              

                           Serial No. 112-113

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.govFOR 
                               SPINE deg.

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-966 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



    PROPOSING AN AMENDMENT TO THE CONSTITUTION OF THE UNITED STATES 
                 TO PROTECT THE RIGHTS OF CRIME VICTIMS




  PROPOSING AN AMENDMENT TO THE CONSTITUTION OF THE UNITED STATES TO 
                  PROTECT THE RIGHTS OF CRIME VICTIMS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                             H.J. Res. 106

                               __________

                             APRIL 26, 2012

                               __________

                           Serial No. 112-113

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                             APRIL 26, 2012

                                                                   Page

                             THE RESOLUTION

H.J. Res. 106, Proposing an amendment to the Constitution of the 
  United States to protect the rights of crime victims...........     2

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Mike Quigley, a Representative in Congress from the 
  State of Illinois, and Member, Subcommittee on the Constitution    54

                               WITNESSES

Brooks Douglass, Carrollton, TX
  Oral Testimony.................................................    56
  Prepared Statement.............................................    58
Jesselyn McCurdy, Senior Legislative Counsel, American Civil 
  Liberties Union
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68
Paul G. Cassell, Ronald N. Boyce Presidential Professor of 
  Criminal Law, S.J. Quinney College of Law at the University of 
  Utah
  Oral Testimony.................................................    77
  Prepared Statement.............................................    80

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution
    Letter from Jan Scully, President, National District 
      Attorneys Association......................................     7
    Letters from crime victims' organizations and families of 
      crime victims..............................................     8

                                APPENDIX
               Material Submitted for the Hearing Record

Supplement to the Testimony of Paul G. Cassell, Ronald N. Boyce 
  Presidential Professor of Criminal Law, S.J. Quinney College of 
  Law at the University of Utah..................................   202
Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution.....................   207


  PROPOSING AN AMENDMENT TO THE CONSTITUTION OF THE UNITED STATES TO 
                  PROTECT THE RIGHTS OF CRIME VICTIMS

                              ----------                              


                        THURSDAY, APRIL 26, 2012

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Scott and Quigley.
    Staff Present: (Majority) Jacki Pick, Counsel; Sarah Vance, 
Clerk; (Minority) David Lachmann, Subcommittee Staff Director; 
and Veronica Eligan, Professional Staff Member.
    Mr. Franks. First, let me just say thank you to all of you 
for your patience. We had to vote on the floor, which slowed us 
down. It has been the proverbial train wreck in slow motion. So 
thank you for your patience.
    Today the Subcommittee on the Constitution examines H.J. 
Res. 106, the bipartisan victims' rights amendment to the 
Constitution, also sometimes called the VRA.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Franks. Without objection, the Chair is authorized to 
declare a recess of the Committee at any time and he may have 
to do that in this case for a few moments.
    Victims' rights legislation and amendments have enjoyed 
broad support at the State and Federal levels, passing by 80 
percent margins in the States and securing influential 
bipartisan support at the highest levels of the Federal 
Government. Senators Kyl and Feinstein have championed victims' 
rights in the Senate, and multiple House and Senate hearings 
have been devoted to advancing victims' rights.
    Despite the best efforts of the State and Federal level to 
bring balance through statutes or State constitutional 
amendments, these efforts have been proven to be inadequate 
whenever they come into conflict with bureaucratic habit, 
traditional indifference, sheer inertia, or the mere mention of 
accused's rights, even when those rights are not genuinely 
threatened.
    As the U.S. Justice Department concluded after careful 
review of the issue, the existing, quote, ``haphazard patchwork 
of rules'' is, quote, ``not sufficiently consistent, 
comprehensive, or authoritative to safeguard victims' rights.'' 
The VRA would specifically enumerate rights for crime victims, 
including the right to fairness, respect, and dignity; the 
right to reasonable notice of and not to be excluded from 
public proceedings related to the offense; the right to be 
heard at any release, plea, sentencing, or other such 
proceeding involving any right established in the amendment; 
the right to proceedings free from unreasonable delay; the 
right to reasonable notice of the release or escape of the 
accused; the right to due consideration of the crime victim's 
safety; and the right to restitution. Moreover, the amendment 
expressly provides standing for the victim to enforce 
enumerated rights.
    Supporters of a victims' rights amendment have included 
President George W. Bush, President Bill Clinton, and President 
H.W. Bush, George H.W. Bush; Attorneys General Janet Reno, John 
Ashcroft, and Alberto Gonzales; Professor Larry Tribe of the 
Harvard Law School; the National Governors' Association; 50 
State attorneys general; Mothers Against Drunk Driving; the 
National Association of Parents of Murdered Children; the 
National Organization for Victims' Assistance; and finally, the 
National District Attorneys Association, the voice of the 
Nation's prosecutors.
    And on this point I find it ironic that the Democratic-
invited witness from the ACLU claims to speak on behalf of 
Nation's prosecutors when she writes in her testimony that 
prosecutorial discretion would be compromised by this 
amendment, and that prosecutors would become less able to 
convict criminals; that their right to be heard hurts the 
effort of prosecutors and the cause of victims. In fact, the 
National District Attorneys Association sent us letters just 
this week saying just the opposite. And I will quote their 
letter.
    Quote: The National District Attorneys Association, 
representing America's prosecutors, wishes to express strong 
support for H.J.Res. 106, the victims' rights amendment. 
Inclusion of victims' rights in our U.S. Constitution will 
ensure that victims' rights and crime victims will be treated 
with fairness, dignity, and respect within our criminal justice 
system, and if within that system, they will be afforded needed 
and meaningful rights, including the opportunity to participate 
at all critical stages of their cases. Inasmuch as America's 
prosecutors are the staunchest advocates for victims within our 
criminal justice system, we are proud to advocate on their 
behalf within the halls of Congress. We call upon this Congress 
to pass the amendment and the States to ratify it, unquote.
    Now I would ask unanimous consent to enter this letter from 
the NDAA into the record. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Franks. In addition, my office has received more than 
30 letters from crime victims' organizations and the families 
of crime victims, which we will add to the hearing as well--the 
record as well.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Franks. I would look forward to hearing from the 
witnesses today on this critical issue, and I thank you all for 
coming.
    I now yield to the Ranking Member, in this case Mr. 
Quigley, for his opening statement.
    Mr. Quigley. Thank you, Mr. Chairman. I would like to thank 
the Chairman for putting this together and all of our panelists 
for being here today.
    I need to apologize in advance. There is a markup next door 
in which I will go vote and come back, so don't take it as any 
sort of insult or slight.
    Today we consider a subject of great importance to every 
Member of this House, our responsibility to ensure that victims 
of crime have their rights respected, their needs met, and that 
everyone in the criminal justice system plays their part in 
assisting people who have suffered great harm.
    It is especially suitable that we are discussing these 
vital issues during National Crime Victims' Week. There was a 
time in this country when victims of crime were not treated 
respectfully. At times crime victims felt, not without 
justification, that they were considered almost extraneous to 
the process.
    With great awareness and legal protections enacted at the 
State and Federal levels, victims receive all kinds of 
assistance, including counseling, financial assistance, 
notification, and the respect to which anyone who has suffered 
harm is entitled. We offer both financial and technical 
assistance to States to help them provide services to crime 
victims.
    So while we have made great progress, we can and should do 
much more. We could provide adequate funding for crime victim 
programs. We could provide proper training and resources to 
Federal, State, and local law enforcement to ensure that our 
existing laws, which require notice and assistance to crime 
victims, are fully enforced.
    One thing we can do immediately is to reauthorize and fully 
fund the Violence Against Women Act, a landmark piece of 
legislation that provides invaluable resources to victims of 
some of the most heinous crimes. This vital legislation has not 
been reexamined in 7 years, and it is in need of some updates 
to ensure full protection of victims. For instance, the bill 
needs to be updated to include language that protects gay, 
lesbian, bisexual, and transgender individuals from 
discrimination at domestic violence shelters. It also needs to 
be amended to ensure undocumented workers who are victims of 
abuse feel safe reporting that abuse to authorities. And 
finally, the bill must be expanded to give American Indian 
authorities jurisdiction over non-Indians who have abused 
Indian women.
    As we discuss protecting victims today, I can think of no 
better way of safeguarding their rights than updating, fully 
funding, and reauthorizing the Violence Against Women Act to 
ensure protection of the rights of all victims of abuse.
    Crime victims also need to see the guilty parties punished 
and to be reassured that neither they nor anyone else will have 
to fear further victimization by that individual. In that 
regard, I have concerns about this proposed constitutional 
amendment.
    We have heard from law enforcement professionals that it 
will do more to obstruct the wheels of justice than to provide 
victims with the assistance they need to put their lives back 
together. For instance, under most versions of the amendment, 
victims would have a constitutional right to call for a faster 
disposition of a matter in their case. While certainly we want 
to see quick resolution of such cases, allowing the victim to 
demand a faster trial may infringe on the right of the accused 
person to adequately prepare. It may also impede the ability of 
a prosecutor to prepare. Similarly, giving victims the right to 
attend the entire criminal trial, even if hearing the testimony 
of other victims, could compromise the victim's testimony, 
could jeopardize the fairness of the trial.
    We have a law, the crime victims' right law, that achieves 
all the objectives sought by the proposed amendment. Let's look 
at improving and fully funding that law before we jump to amend 
the Constitution.
    As Mr. Cassell points out in his testimony, congressional 
funding for the National Crime Victims Law Institute clinics 
has been diminished. As a result, six clinics have stopped 
providing rights, enforcement, legal representation. The CVRA 
vision of an extensive network of clinics supporting crime 
victims' rights clearly has not been achieved.
    The Crime Victims' Right Act could also be improved by, for 
example, more clearly defining what is meant to be reasonably 
heard in court. Offering symbolic gestures to crime victims and 
weakening legislation that would provide assistance to them is 
not the best way to help victims of crime. Debating yet another 
constitutional amendment that we know from long experience is 
going nowhere will certainly not help victims of crime.
    I want to thank the Chairman and welcome our panel today, 
and I look forward to their testimony. I yield back.
    Mr. Franks. And I thank the gentleman.
    And without objection, other Members' opening statements 
will be made part of the record.
    I will now introduce our witnesses. Brooks Douglass is a 
lawyer, a former State senator in Oklahoma, and a film producer 
and actor. Mr. Douglass' 2010 film, Heaven's Rain, is the true 
story of the 1979 tragic murder of his parents, Dr. and Pastor 
R. Douglass and Marilyn Douglass, and the attempted murders of 
his younger sister and himself.
    Two criminals entered the Douglass home, bound the family, 
raped the 12-year-old daughter, and shot all four members of 
the family. Only the two children survived.
    Mr. Douglass went on to earn his M.B.A., J.D. and an M.P.A. 
At Harvard's Kennedy School of Government. He now devotes his 
life to working for victims' rights.
    Jesselyn McCurdy is a senior legislative counsel for the 
American Civil Liberties Union, the ACLU, with a focus on civil 
liberties in the areas of criminal justice. Prior, she was a 
counsel for the U.S. House of Representatives Committee on the 
Judiciary, Subcommittee on Crime, Terrorism, and Homeland 
Security. Ms. McCurdy has also worked as the assistant section 
director of the American Bar Association Section of Individual 
Rights and Responsibilities. She was a staff attorney for the 
American Prosecutors Research Institute, affiliated with the 
National District Attorneys Association. Ms. McCurdy received 
her J.D. from Catholic University of America and the Columbus 
School of Law.
    Paul Cassell is an endowed chair at the University of Utah 
College of Law. Professor Cassell received a J.D. from Stanford 
University, where he was president of the Stanford Law Review. 
He clerked for then-Judge Antonin Scalia, D.C. circuit at the 
time, and for Chief Justice Warren Burger. He then served as an 
Associate Deputy Attorney General; an assistant U.S. attorney, 
EDVA in Virginia; and a U.S. district court judge in Utah. 
Professor Cassell resigned his Federal judgeship to teach and 
litigate issues to advance victims' rights.
    And I would thank all the witnesses for appearing today. We 
appreciate you taking the time to come out and speak to us on 
this very important issue.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. And I would ask each of the 
witnesses to summarize his or her testimony in 5 minutes or 
less. To help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you will have 1 minute to conclude your testimony. When 
the light turns red, it signals that the witness' 5 minutes 
have expired.
    Before I recognize the witnesses, it is the tradition of 
the Subcommittee that they be sworn. So if you would please 
stand.
    [Witnesses sworn.]
    Mr. Franks. Thank you. Please be seated.
    Also, to the witnesses, please turn on your microphone 
before speaking. That nearly gets about half of the witnesses.
    And I would recognize our first witness for 5 minutes. Mr. 
Douglass, thank you for being here, sir.

          TESTIMONY OF BROOKS DOUGLASS, CARROLLTON, TX

    Mr. Douglass. First, thank you, Chairman Franks, for 
considering this issue and for giving me the honor to come 
before this Committee and testify. As you said, it is an 
incredibly important issue. And really what I wanted to do was 
tell a little bit about my story, and you eloquently presented 
most of it, or a lot of it, for me.
    But as you said, in 1979, Glen Ake and Steven Hatch came to 
my front door. I let them in to use the phone. They over the 
next few hours, hog-tied us all face down on our living room 
floor in our home, took turns raping my 12-year-old sister 
Leslie, and then sat down and ate the dinner that my mother had 
been fixing, and then shot us all in the back and left us for 
dead. My mother and father both died there in front of me. And 
Leslie and I were able to get out of the house, get to--drive 
to a doctor's house and get medical help.
    That began our experience with the criminal justice system, 
beginning right at the start of speaking to the Oklahoma 
Highway Patrol, even when we didn't know if we were going to 
survive or not.
    About 6 weeks later Glen Ake and Steven Hatch were caught. 
They had also killed two people in south Texas. That time they 
shot them with a shotgun so they made sure they finished them 
off. I went on to college. Well, they were both tried within a 
year and given the death sentence.
    Over the next few years, I went on to college, was called 
back three times in the course of those 4\1/2\ years that I was 
in college to testify again against Steven Hatch in particular. 
In my senior year the Glen Ake case was heard by the U.S. 
Supreme Court. It was reversed and remanded for a new trial, 
which was held 7 years after the original trial--after the 
murders, and he was given life sentences at that time with 
possibility of parole because there was no life without parole 
in Oklahoma.
    So all told--we went back and testified then. All told, my 
sister and I testified nine different times against these guys 
that committed the crime. Seventeen years later, in 1996, 
Steven Hatch was finally executed.
    There were things that happened within the system, like the 
day we got out of the hospital, when we were discharged, we 
were handed a bill for over $500 that included the rape exam 
kit that was used on my sister Leslie to collect evidence of 
the rape. There was no provision in the law to reimburse us for 
that. I paid $117 to get my car back that had been impounded as 
evidence, and there was no provision in the law to reimburse 
us.
    In 1990, I was elected to the State senate, and as I said 
in my statement, I would love to say it is for lots of noble 
reasons, but the fact is I just needed a job, and there was an 
opening. So I ran at 26 and was elected, and was 27 when I took 
office and, you know, had the chance to--or I went on the 
judiciary committee about a year later or the appropriations 
committee. And I was on the subcommittee that funded the 
judiciary. Just then I got a call from a reporter saying--and I 
was avoiding victims' rights. I just wanted to pretend it 
wasn't an issue, I think, and didn't want to look like a 
crusader. So I didn't take that up until I got this call saying 
that the Hatch case was now the slowest-moving case on death 
row in Oklahoma. After 13 years it was on the third step of a 
nine-step appellate process, and a lot of it was because for 2 
years the Oklahoma Court of Criminal Appeals had lost the file 
in the case.
    So going on the appropriations committee right then, I had 
a chance to discuss this with the chief judge and, you know, 
keeping it as impersonal as I could, but at the end of the day, 
I couldn't help myself. I finally said, you know, until you 
guys find that file, get a decision handed down, and I really 
don't care what the decision is, you had better learn how to do 
your job with a number 2 pencil and a big cheap writing tablet 
because that is all you are going to have. And fortunately the 
other Members of the Subcommittee agreed with me. But 
miraculously they got the decision handed down within about 30 
days.
    Our experiences, you know, in dealing with the criminal 
justice system, there are a lot of things that I did as a 
senator. There were 28 pieces of legislation that I initiated, 
I sponsored, that got signed into law in Oklahoma, including 
one of them being a constitutional amendment, as you mentioned.
    The problem is that they are routinely ignored when it is 
not convenient for the court and even the prosecution. The 
prosecution does the best that they can. They have victim-
witness coordinators. They try to do what we have asked them to 
do in the statute. But, yeah, there have been multiple times, 
one as recently as a few months ago, where I got a call from a 
victim who was not allowed to give a victim impact statement.
    So I see that my time is up, and I will take whatever 
questions you have.
    [The prepared statement of Mr. Douglass follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Franks. Well, thank you, Mr. Douglass, very much. And 
your testimony that you ran at 26 and elected at 27 also 
happens to be my own testimony in the legislature, and I would 
just caution you that that can lead to some pretty frightening 
ends. So you might want to be careful there.
    Mr. Douglass. They just told us where the bathroom was for 
about a year.
    Mr. Franks. Ms. McCurdy, I would now recognize you, ma'am, 
for 5 minutes.

  TESTIMONY OF JESSELYN McCURDY, SENIOR LEGISLATIVE COUNSEL, 
                 AMERICAN CIVIL LIBERTIES UNION

    Mr. McCurdy. Thank you, Mr. Chairman.
    I would like to thank----
    Mr. Franks. Ms. McCurdy, could you pull that microphone a 
little closer to you?
    Mr. McCurdy. Thank you.
    I would like to thank Chairman Franks, Ranking Member 
Nadler, and also acknowledge my former boss Representative 
Scott for inviting the American Civil Liberties Union to 
testify at today's hearing on the victims' rights amendment.
    The victims' rights constitutional amendment introduced by 
the Chairman would extend various rights to all crime victims. 
This amendment would profoundly alter the Nation's founding 
charter. It would fundamentally compromise the Bill of Rights 
protections for accused persons in every Federal, State, and 
local criminal case.
    While the proposed amendment would attempt to codify a role 
for criminal victims in the criminal justice process, the ACLU 
is concerned that it will be difficult to provide the rights of 
victims while preserving the constitutional rights of people 
accused of crimes whose fundamental liberty interest is 
directly at stake.
    The Framers created a two-party adversarial criminal 
justice system with the public prosecutor, a criminal 
defendant, and a neutral judge. The Framers were aware of the 
enormous power of the government to deprive a person of life, 
liberty, and property. The VRA will jeopardize the basic 
safeguards put in place to protect criminal defendants by 
infringing on their presumption of innocence and right to a 
fair trial.
    In the past 220 years, the Federal Constitution has been 
amended only 17 times. Amending the Constitution is a serious 
matter and should be reserved for those issues where there are 
no other alternatives available. Many of the provisions of the 
victims' rights amendment reflect laudable goals, but it is 
unnecessary to pass a constitutional amendment to achieve them.
    On October 30, 2004, Congress enacted the Crime Victims' 
Rights Act of 2004, legislation that enumerates eight statutory 
rights for victims of crime. In addition, every State has 
either a State constitutional amendment or statute protecting 
victims' rights.
    The constitutional protections afforded the accused in 
criminal proceedings are among the most precious and essential 
liberties provided in the Constitution. The VRA undermines the 
presumption of innocence by conferring rights to an accuser at 
the time in a criminal case when the accuser is still presumed 
innocent. Not every person accused of a crime is actually 
guilty of committing a crime, but giving the accuser the 
constitutional status of victim could impact the judge and 
jury, making it extraordinarily difficult for fact-finders to 
remain unbiased when the victim is present at every court 
proceeding, and potentially prejudicing those who will 
determine guilt or innocence.
    The VRA makes the accuser a third party in a criminal case 
even before a judge or jury has determined the accused is 
actually a victim.
    The VRA would give crime victims a constitutional right to 
attend the entire criminal trial, even if the victim is going 
to be a witness in the case. In many instances, the testimony 
of a prosecution witness will be compromised if the person has 
heard the testimony of other witnesses. Typically trial 
witnesses are barred from the proceedings prior to their 
testimony for this very reason. Despite the possibility of 
tainting his or her testimony, the VRA gives the victim a 
constitutional right to be present, even over the objections of 
the defense or prosecution.
    The crime victims' rights was established in October of 
2004, establishing eight rights for Federal crime victims and 
two mechanisms to enforce those rights. Congress enacted CVRA 
after another version of the victims' rights constitutional 
amendment failed. In passing the CVRA instead of a 
constitutional amendment, Congress intended to preserve the 
system the Framers created, with the public prosecutor charged 
with acting in the public interest, and a criminal defendant 
with a full panoply of constitutional rights, and a neutral 
judge.
    The CVRA also directed the General Accounting Office to 
conduct an evaluation of limitations of the CVRA. GAO found 
that there were very few victims having asserted their CVRA 
rights in court.
    According to the GAO, several key issues have developed 
since the implementation of the CVRA that require the courts to 
interpret provisions of the law. For example, it is unclear 
whether the CVRA applies to victims of local offenses 
prosecuted in the District of Columbia. It is also unclear what 
stage of the criminal justice process the CVRA rights begin to 
apply and what standard of appellate review should be used for 
writs of mandamus. These should all be noncontroversial changes 
that Congress could make to the legislation in order to 
facilitate and exercise the victims' rights without passing a 
constitutional amendment.
    The VRA would give victims rights at least equal the 
defendants' constitutional rights; however, some of these same 
rights are given in the statute.
    The ACLU opposes any effort to enact a victims' rights 
constitutional amendment because it would undermine the 
presumption of innocence and the right to a fair trial for the 
accused.
    Mr. Franks. Thank you, Ms. McCurdy.
    [The prepared statement of Ms. McCurdy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Mr. Franks. And I would now recognize Professor Cassell for 
5 minutes.

  TESTIMONY OF PAUL G. CASSELL, RONALD N. BOYCE PRESIDENTIAL 
 PROFESSOR OF CRIMINAL LAW, S.J. QUINNEY COLLEGE OF LAW AT THE 
                       UNIVERSITY OF UTAH

    Mr. Cassell. Thank you, Mr. Chairman and distinguished 
Members of the Committee. I am pleased to be here today----
    Mr. Franks. Professor Cassell, let us try to pull that a 
little closer. I know it is always----
    Mr. Cassell. Is that better there?
    Mr. Franks. Not much. Is the microphone on?
    Mr. Cassell. Is the microphone on? Is it on now? Is that 
working?
    Mr. Franks. Not very well, sir. Let us try to pull it even 
closer.
    Mr. Cassell. All the way up here. Is that better?
    Mr. Franks. I guess it will have to work. Yes, sir.
    Mr. Cassell. All right. Mr. Chairman and distinguished 
Members of the Subcommittee, I am pleased to be here today to 
testify in support of House Joint Resolution 106, the victims' 
rights amendment.
    The victims' rights amendment would expand civil liberties 
by adding a bill of rights for crime victims to our Federal 
Constitution. In doing so, the victims' rights amendment would 
build on the experience of more than 30 States who have all 
amended their constitutions to add protections for victims' 
rights.
    Now, while these efforts have been valuable, they have not 
been fully successful in protecting crime victims. As Attorney 
General Janet Reno reported after a comprehensive review by the 
Justice Department, these significant State efforts simply are 
not sufficiently consistent, comprehensive, or authoritative to 
safeguard victims' rights.
    Research has shown that the crime victims most likely to be 
deprived of their rights under the current patchwork regime are 
racial minorities, residents of inner cities, and the poor. 
Only an unequivocal constitutional mandate will translate paper 
promises into real guarantees for crime victims.
    The victims' rights amendment builds on the fact that there 
is a national consensus that crime victims deserve respect in 
our criminal justice process. It would protect basic rights, 
like the right to be notified about court hearings, the right 
to attend those hearings, and the right to be heard at relevant 
points in the process, like bail hearings, plea hearings and 
sentencing. These are the kinds of rights that our Constitution 
is typically and properly concerned about, the rights of 
individuals to participate in governmental processes that 
seriously affect their lives. As President Clinton explained in 
endorsing the victims' rights amendment, participation in all 
forms of government is the essence of democracy.
    Criticisms of the amendment are often based on uninformed 
speculation about how the language might be misinterpreted or 
misapplied by courts. But as I detail at greater length in my 
written testimony, the victims' rights amendment draws on the 
experience in the various States and Federal legislation that 
is out there. For example, the victims' rights amendment begins 
by promising all victims that their rights to, quote, fairness, 
respect, and dignity shall not be denied or abridged by the 
United States or any State. Similar provisions are found in the 
Crime Victims' Rights Act and in the State constitutions of 
Arizona, Idaho, Illinois, Maryland, New Jersey, Texas, 
Wisconsin, and my home State of Utah. State and Federal courts 
have taken that language and applied it without the kinds of 
difficulties that have been speculated by the ACLU or other 
opponents. I have never heard any serious argument about 
giving--against giving victims the right to be treated with 
fairness, dignity, and respect in the process, and these rights 
should be enshrined in our Constitution.
    Now, sometimes it is argued, as it has been this afternoon, 
that crime victims' rights will come at the expense of 
defendants' rights. But House Joint Resolution 106 is a very 
carefully crafted measure that adds victims' rights that would 
coexist alongside with defendants' rights. For example, 
paralleling a defendant's Sixth Amendment right to a speedy 
trial, House Joint Resolution 106 gives victims the right to 
proceedings free from unreasonable delay. According to Harvard 
law professor Larry Tribe, who has endorsed a version of the 
amendment, these rights cannot collide since, by definition, 
they are both designed to bring matters to a close within a 
reasonable period of time.
    Now Mr. Quigley was wondering whether or not this right 
would be used to force prosecutors to go to trial before they 
were ready or defense attorneys to go before they were fully 
prepared. It would not. The victims' rights amendment simply 
extends to victims the right to proceedings free from 
unreasonable delay. If a prosecutor or defense attorney needs 
additional time, they certainly would be entitled to receive it 
under the amendment.
    Now, the amendment specifically addresses the concern about 
protecting the legitimate interests of criminal defendants by 
identifying crime victims' rights as those, quote, capable of 
protection without denying the constitutional rights of the 
accused. This language was included in the amendment at the 
suggestion of Harvard law professor Larry Tribe. And I noticed 
that in neither Ms. McCurdy's prepared remarks or her testimony 
this afternoon does she even mention this direct language, let 
alone explain how courts could somehow ignore it and deny 
rights to criminal defendants. It is hard to understand how the 
amendment could be used to deny defendants their rights when 
the explicit text provides exactly the opposite.
    While the amendment would not in any way interfere with the 
legitimate interests of criminal defendants, it would protect 
vital interests of crime victims. It would protect victims from 
being excluded from court proceedings, proceedings that they 
desperately want to attend to learn all they can about crimes 
that have been committed against them. It would guarantee 
victims the right to be heard at bail, plea, and sentencing 
hearings not to veto the decisions that judges would make in 
those hearings, but simply to have a voice in the process. And 
it would mandate that victims receive reasonable notice of the 
release or escape of accused persons or defendants, which can 
sometimes be literally a matter of life or death for victims 
who need to take appropriate steps to protect themselves 
against criminals on the street.
    These rights are not controversial. They command broad 
bipartisan support, which is why President Clinton first 
proposed a victims' rights amendment and later saw it endorsed 
by President George Bush. Public opinion polls consistently 
show overwhelming majorities of Americans want constitutional 
protection for crime victims' rights.
    Now, I understand that in Washington today, delay has 
occurred on some issues because of partisan disagreement on how 
to proceed, but I hope there will be no delay in moving forward 
with the victims' rights amendment. The Framers of the 
Constitution undoubtedly believed that victims of crime would 
receive adequate respect in our criminal justice system. 
Because experience has not vindicated that expectation, it is 
now necessary to add a corrective amendment to our 
Constitution, the victims' rights amendment.
    Mr. Franks. Thank you Professor Cassell.
    [The prepared statement of Mr. Cassell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Mr. Franks. And I will now begin the questioning time by 
recognizing myself for 5 minutes. I again appreciate all of you 
for your testimony.
    Mr. Douglass, I will begin with you. I have had the 
opportunity to hear many different witnesses express very 
moving testimony, but I will say to you, sir, that your 
testimony here today was one of the most moving and compelling 
that I have heard as the Chairman of this Committee. And I will 
suggest to you that your parents would be and are quite proud 
of you for your performance and presence here today.
    Mr. Douglass. Thank you.
    Mr. Franks. And I would ask you, if you would, to describe 
real-life examples that you have discovered in your own life or 
experience where existing crime victims statutes or State 
constitutional amendments have failed to provide the 
protections that they promised to crime victims.
    Mr. Douglass. Certainly. Thank you, Mr. Chairman. I will 
give one example.
    After we passed the initial victims' rights act in 
Oklahoma--and that included, actually amended in 1992, the U.S. 
Supreme Court handed down a decision saying that victim impact 
statements were constitutional. About a year later, after our 
statute had passed, I got a call from someone that I knew in 
Tulsa, Oklahoma. His mother had been murdered, and they had 
held the trial, and the person--someone had just been convicted 
of committing that murder.
    He called me and said that they were all getting ready to 
give their victim impact statements, and the judge literally 
said, I am not going to hear it. So the prosecutor went in and 
argued the Supreme Court decision and our statutes and said, 
you have to hear this testimony. And he just said, I am not 
going to do it. So they had called me and asked me to call the 
judge and discuss it with him, which I did. And the judge 
basically said, I don't think it is constitutional, and I am 
not going to hear it. I don't like being told what to do in my 
courtroom.
    And the upshot was, what are you going to do about it? And 
to make a long story short, I wound up bringing in the Court of 
Criminal Appeals chief judge. We had a conversation with him, 
and I said the same thing to both of them. I said, well, I 
understand you have a job to do. You don't want to be told what 
to do in your courtroom. And I have a job to do as a State 
senator, and now I am going to do mine. I said, I am going to 
go down and I am going to get staff. I am going to author a 
bill that creates a review committee, and what their job will 
be is to review decisions dealing with crime victims' rights, 
and if they find that you have wrongfully denied a victim of 
one of their rights under the statutes or the Constitution of 
Oklahoma, they are going to ultimately have the power to take 
away your pension.
    Well, you know, pretty quickly he decided then that--I 
don't know if it would be constitutional for me to do that or 
not, frankly, but I didn't have to file the bill. He wound up 
actually deciding it was a good idea to hear the victim impact 
testimony.
    But there have been countless--even after I left the 
senate, just as I think I said in my testimony a few months 
ago, a judge, a sitting judge who I went to law school with, 
and maybe it wasn't a very good law school, but at the end of 
the day, he just said, I don't think it is constitutional. He 
doesn't bother looking up Supreme Court decisions. As you 
mentioned in your initial statement, just the mention of the 
constitutional rights of the accused is enough for them. 
Whether it has any basis or not, the victims' rights are 
ignored.
    As I have said many, many times from the senate floor in 
Oklahoma, we have a system that literally steps over the body 
of the victim to read the criminal his rights, or the suspect 
his rights, and as long as there is not equal footing, as 
long--the victims will continue to be second-class citizens in 
our system.
    Mr. Franks. Well, thank you, Mr. Douglass, very much. And I 
again appreciate your presence here today, sir.
    Professor Cassell, it seems I have been mispronouncing your 
name, and I apologize. But how widespread, in your opinion, is 
the problem described by Mr. Douglass; that is, this failure of 
State victims' rights laws to protect crime victims? And I 
suppose I should add, what reason is there for thinking that if 
a Federal constitutional amendment were enacted, that the 
protection of crime victims' rights would improve?
    Mr. Cassell. Let me address both of those questions. There 
was a comprehensive Justice Department review done by Attorney 
General Janet Reno, and she found that the State enactments 
failed to fully safeguard victims' rights because they were not 
sufficiently consistent, comprehensive, or authoritative. She 
relied in part on a National Institute of Justice study that 
looked at, I think, eight different States to see how the State 
amendments were being implemented, and they found significant 
problems. For example, fewer than 60 percent of crime victims 
were notified of sentencing hearings, and fewer than 40 percent 
of victims were notified of pretrial release.
    Now, those error rates are simply astounding. I mean, I 
wonder what the Committee would do if it found out, for 
example, that even 5 percent of criminal defendants were not 
getting their right to be represented by counsel or something 
along those lines. I am assuming there would be hearings and 
immediate steps taken to rectify the situation. But that is the 
level of the problem that is out there.
    Now, we have heard some discussion, too, about the Federal 
system and the new Crime Victims' Rights Act. I wanted to say 
just a couple of words about that. Let us remember that the 
Federal Crime Victims' Rights Act applies to fewer than 5 
percent of the criminal prosecutions in this country. Most of 
the prosecutions are done at the State and local level, and 
certainly most of the violent crimes or extremely violent 
crimes, such as the one Mr. Douglass is talking about, are 
handled by State and local prosecutors. So the Federal system, 
I think, is a little bit unusual. But even here the General 
Accounting Office found significant situations, such as the 
fact that less than half of Federal victims were even aware 
that they had a right to confer with Federal prosecutors.
    So that is the level of the problem that we have out there. 
A constitutional amendment would immediately change the 
culture. The kinds of examples we have been hearing about today 
simply wouldn't happen. You don't see judges ignoring a 
defendant's right to counsel, because they are taught that in 
law school, they know it is in the Constitution, and they 
respect it. The same kind of change would happen if we passed a 
victims' rights amendment.
    Mr. Franks. Well, thank you, Professor. And related to your 
testimony about the Janet Reno study, did I hear it--was it 
Janet Reno?
    Mr. Cassell. Yes.
    Mr. Franks. Okay. From my memory on that part, that she has 
been accused of being part of a right-wing conspiracy here.
    But with that I would yield to Mr. Quigley for 5 minutes 
for questions.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Douglass, I apologize for being out of the room when 
you testified. One of the few absolute responsibilities we have 
here is voting, and I was next door doing that. But I read your 
testimony. It is quite compelling and very important for us to 
appreciate.
    To all of our panelists, having been in the trenches of the 
justice system as a criminal attorney at 26 in California and 
Chicago for 10 years, probably 220 trials, I can tell you it 
isn't easy. We all speak of a balance, but the balance is 
played out every day.
    And, Professor, when I talk about my reservations, it comes 
from that experience, because after I left that work, I was a 
Cook County commissioner on the litigation committee. Our first 
act was to deal with a lawsuit of four men, the Ford Heights 
Four, who went to jail or on death row. One was lined up on 
death row. One was raped in prison. And it was the wrong guys, 
right? In Illinois--we talk about the balance, the horrific 
unfortunately goes to both sides.
    Before they got rid of the death penalty, they exonerated 
more people on death row through DNA and so forth than they 
executed. So if no one cares about that aspect from the issue 
of justice, the county had to settle the Ford Heights case for 
$36 million.
    So that no one thinks this is just about the alleged 
perpetrators' rights being taken away, being put on death row, 
we want to get this right because the victims want the right 
people punished. So my concern, Professor, is we got to get 
this right. And when it comes to speedy trials, you say--you 
quoted someone from Harvard saying they can't collide. Well, 
they do. And I am telling you, it is not easy to sort out, you 
know? We put people on the bench. Some are good, and some are 
bad.
    But you have to appreciate from a veteran's point of view, 
I have seen haste make horrible mistakes. I mean, how do you 
balance that out with the language that you are trying to 
address here beyond just that word ``unreasonable,'' which 
courts struggle with?
    Mr. Cassell. Well, I was a Federal prosecutor for 4 years, 
and I was a Federal district court judge for 5 years, so I have 
been in the trenches as well and have seen a number of the 
cases that are out there.
    I think I agree with Harvard law professor Laurence Tribe. 
He was the law professor that I was quoting. And the idea here 
is not to take away rights from criminal defendants, but to 
expand rights for crime victims.
    So let us talk about the one you have been pointing to, and 
the language, I think, is very carefully drafted. It says that 
crime victims would have the right to proceedings free from 
unreasonable delay. And by definition, and the situation in 
which the prosecutor needs to prepare a case or the defendant 
needs to collect evidence, that would be reasonable delay. But 
we have all seen situations--I am sure you have--where delay is 
happening for delay's sake or for no good reason at all. The 
amendment would give a victim a right to go in and say, wait a 
minute, Judge, we need to get this case moving along.
    The other thing I should point out is that there are a 
number of States--and my prepared testimony actually lists 
them--that already have in their State constitutions a 
constitutional right to proceedings free from unreasonable 
delay. So the fact that these States have been able to provide 
these rights without the kinds of problems that I think some 
have been suggesting bodes very well for the Federal 
constitutional amendment.
    Mr. Quigley. And I appreciate what you are saying. I still 
think, though, beyond the simple words of what you are trying 
to do, every case is unique, and every case is bound upon that. 
And I think to a certain degree you are creating unrealistic 
expectations that with the stroke of a pen and the passage of a 
constitutional amendment, judges are going to have a much 
easier time sorting out that troubling aspect of this right 
now, and that is lost witnesses, complicated data, experts' 
cost, pending litigation. You know, perhaps much better than I, 
a dozen other reasons that this could be held off and could be 
extraordinarily complicated, and we get it wrong both ways. You 
know, it is something we struggle with.
    I just have fears that it is hard to do the most important 
thing we do, and that is seek justice, with the language that 
has to be so broad as a constitutional amendment, and you want 
to be balanced. But I just think it is harder than that, what 
you have tried to explain here in just these few minutes, and 
there is just so much at stake in our attempts to do so, 
because, again, it does the victims no good to have a hearing--
to have a trial take place, and we get the wrong people.
    But I will yield back.
    Mr. Franks. Thank you, Mr. Quigley.
    We will now recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I think we all want dignity, respect, and protection for 
our witnesses, and the question is whether the constitutional 
amendment would create more problems than it solves. Professor 
Cassell mentioned the State measures. They are all subservient 
to the Federal Constitution.
    You also mentioned the right to counsel and how that is not 
ignored. Well, a right to counsel, if you violate that, that is 
reversible error. That is why the judge has to pay attention to 
that. There is nothing in here that creates any remedy that is 
apparent. I guess mandamus.
    If you really want to provide respect, dignity, 
consultation, protection, what we ought to do is have more 
victim advocates, more prosecutors so they have actual time. A 
lot of State prosecutors come in with a stack of files. They 
don't have time to talk to anybody, so of course they are going 
to be rude. If you had more prosecutors and more marshals to 
provide protection. Unfortunately the budget that we are trying 
to work under this year eliminates a lot of the funding for the 
victims' advocates, cuts the Department of Justice budget 
significantly, and has about a 10 percent cut for the marshal 
services. So who is going to be doing the protection?
    Let me ask a couple of questions, because some of this is 
all in theory, and I just want to know what this kind of looks 
like.
    If a victim has, in fact, been disrespected and goes in the 
court and presents a case--it says any court, so I assume if it 
is a State court proceeding, they can go into Federal court to 
make the case that they are being disrespected in State court. 
What does a judge do? Does a prosecutor get subpoenaed to 
testify, no, I didn't disrespect them?
    Mr. Cassell. The way the enforcement would work is if there 
was a problem in State court, the victim would go into State 
court to address that.
    Mr. Scott. Well, it says in here any court, enforce those 
rights in any court, has a standing to enforce these rights in 
any court.
    Mr. Cassell. So you would have standing to enforce them in 
both State and Federal court.
    Mr. Scott. So you would go to Federal court and present to 
a judge that you are being disrespected in State court?
    Mr. Cassell. You would go initially, though, to the State 
court, because the State court is the--you have to exhaust 
remedies before you can proceed to some other forum to 
vindicate your rights. And the way that this would work--again, 
there are real-world examples of a right to be treated with 
respect, and my prepared testimony collects specific examples.
    For example, in a child pornography prosecution, if 
somebody is showing the pornography around in ways that are not 
respectful to the victim, the victim can go to that judge and 
say, wait a minute, these materials should be kept under seal, 
only disclosed to people that have a need to see that 
information. That is the kind of enforcement that becomes 
possible if a Federal constitutional amendment----
    Mr. Scott. Well----
    Mr. Cassell [continuing]. Around the country.
    Mr. Scott. Let us get back to disrespect. If you are in 
court and approved your case, can you subpoena the prosecutor?
    Mr. Cassell. You wouldn't need to subpoena the prosecutor. 
The prosecutor would be right there during the proceedings, and 
so you would assert----
    Mr. Scott. Now, if you are in any court, you can go into 
any court and--so let us say the judge is the problem, and you 
want to go into another court to show that you are being 
disrespected. And you present it to the court: Won't return 
phone calls, didn't notify me of this and that. Is that an ex 
parte proceeding? Can you go ex parte in Federal court?
    Mr. Cassell. No, you don't go ex parte. Again, there are 
real-world examples of how these rights are handled, and you 
don't go to a different court, you don't subpoena the judge. 
Just as you pointed out, if a defense attorney is not appointed 
for a defendant, you don't go and subpoena----
    Mr. Scott. No. That is reversible error. You don't have to 
worry.
    If you have shown that you are being disrespected, what is 
the remedy?
    Mr. Cassell. Well, the remedy is to correct the disrespect.
    Mr. Scott. And if they don't do it, what is the remedy?
    Mr. Cassell. The remedy then is to go to the appellate 
court and say the lower court is not following the directive in 
the United States Constitution. Again, there are real-world 
examples.
    Mr. Scott. Is that an ex parte proceeding?
    Mr. Cassell. No. It is a judicial proceeding that is 
handled with notice to both sides with service of process on 
both sides.
    Mr. Scott. And you don't have enough prosecutors to begin 
with. So they are sitting up in all these other courts.
    Unreasonable delay. How will a judge determine whether or 
not the delay is reasonable or not?
    Mr. Cassell. Right. There would be typically a four-factor 
balancing test. In my prepared remarks, I indicate the four 
factors that the judges have used. And remember, defense 
attorneys now----
    Mr. Scott. I am running out of time. So if the delay is 
because the prosecutor's witness has disappeared, and the 
defense doesn't know about it, or refuses to testify, or the 
prosecution has lost the evidence and is trying to find it, 
would that be an open trial with the defendant there listening 
to the proceedings as to why they haven't gone forward?
    Mr. Cassell. The question would be for the judge whether 
the delay was reasonable or not, and a record would be made on 
that. In certain situations records can be made in sealed 
proceedings. So that is how that issue would be handled.
    Mr. Scott. Well, I mean, so the defendant would have the 
opportunity to hear that the prosecutor's case has all fallen 
apart, and that is why they are asking for a continuance?
    Mr. Cassell. That is the way it happens today in many 
cases.
    Mr. Scott. No, they just--the defendant knows he did it, so 
he doesn't want--if the prosecutor wants a continuance, fine 
with me.
    Now you have got an idea that the witness isn't going to 
show up, and the victim says it is unreasonable delay. And the 
judge says, this is unreasonable; Mr. Prosecutor, why aren't 
you going forward? Then what does the prosecutor say?
    Mr. Cassell. All I can say, Congressman, is that that has 
not been a problem, for example, in my home State of Utah, 
where there is such a right. And that is probably why the 
National District Attorneys Association just this week endorsed 
the amendment saying it would actually strengthen the 
prosecution.
    Mr. Scott. Mr. Chairman, can I ask one additional question?
    Mr. Franks. Without objection, please.
    Mr. Scott. The language in section 1 starts off with the 
rights of the crime victim, fairness, respect, and dignity, 
being capable of protection without denying the constitutional 
rights of the accused. Do you interpret that as being a 
priority for rights of the accused or a statement, in fact, 
that you can provide fairness, respect, and dignity without 
denying the constitutional rights? Is that a question of fact, 
a statement of fact, or a statement of priority?
    Mr. Cassell. What it is is a statement of coexistence, that 
both victims' rights and defendants' rights can coexist without 
compromising each other. The language, I should point out, was 
drafted by Harvard law professor Laurence Tribe, again who is 
frequently cited as one of the leading advocates for civil 
liberties in this country. So we think the language would 
actually work very well to make sure that both defense 
interests and crime victims' interests are----
    Mr. Scott. Well, my question is if there is--if somebody 
believes there is a conflict, would the right of the accused 
trump the rights of the victim? Or is this a statement of--
trying to be a statement of fact that there is, in fact, no 
conflict, and that the crime victims' rights will be respected 
notwithstanding any denying of constitutional rights to the 
accused?
    Mr. Cassell. It does not provide a basis for denying 
defendants' rights. It does not provide a basis for denying 
victims' rights. It says that both rights can coexist. And 
again, nobody has provided a real-world example of how the 
rights are going to interfere with the defendants' interests.
    Mr. Franks. Mr. Scott, I am going to have to ask you to 
leave it there, sir. I have got a vote in the Committee next 
door that I have got to--and that means I am going to have to 
be pretty direct here.
    But we have had a good hearing, and I want to thank all of 
the witnesses for coming. And, without objection, all Members 
will have 5 legislative days to submit to the Chair additional 
written questions for the witnesses, which we will forward and 
ask the witnesses to respond to as promptly as they can so that 
their answers may be made a part of the record.
    Without objection, all Members will have 5 legislative days 
within which to submit any additional materials for inclusion 
into the record.
    With that, again, I sincerely thank the witnesses. I thank 
the Members and observers. And this hearing is now adjourned.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

    Supplement to the Testimony of Paul G. Cassell, Ronald N. Boyce 
Presidential Professor of Criminal Law, S.J. Quinney College of Law at 
                         the University of Utah

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Material submitted by the Honorable Trent Franks, a Representative in 
 Congress from the State of Arizona, and Chairman, Subcommittee on the 
                              Constitution

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

                                 <all>

</pre></body></html>
